                      CLOSEOUT FOR M95070030
                         adjunct program officer in NSF' s Division
                        , brought this case toO I G on June 9, 1995.

                  of the
I n f t o l d him o
The allegation concerned Dr.
                                           and co-authored by Drs.
                                                       , as one of

     The informant alleged that the book manuscript had recently
been withdrawn because of alleged misconduct. He alleged that the
subject had derived the expository material introducing the book's
original contributions from a set of lecture notes developed by
several students over a number of years, but had not appropriately
credited his sources. O I G wrote to the subject, whose reply to our
letter did not satisfactorily explain his actions           We then
contacted the collaborator, who told us that Dr.                  of
                      (the complainant) had caused the book to be
                     cation for ethical reasons. This led us to
contact the complainant, who gave us a full account of his
allegation.
     The complainant was the subj ect ' s dissertation advisor. He
told O I G that, when the subject had shown him the book manuscript,
he had objected that the manuscript mimicked too closely the
lectures that the complainant had given on the same topic. He said
that the subject revised the manuscript, altering passages that the
complainant had specifically identified, but that the complainant
continued to believe that the manuscript was derived from his own
original work in a way that was inappropriate. The complainant
stated that the subject made no attempt to misappropriate credit
from the complainant, acknowledged the complainant as a major
source of his ideas, and dedicated his manuscript to the
complainant.
     O I G concluded that the alleged improprieties, if true, were
not sufficiently serious to be misconduct. We determined that the
subject's allocation of credit in the manuscript was, at most, a
deviation from accepted practices and that there was no evidence or
allegation that the subject had claimed credit for words or ideas
that were not his own. We concluded that, in the absence of a
                           page 1 of Z                       M95-30
                     CLOSEOUT FOR M95070030
serious misappropriation of credit, the subject's submission of a
manuscript  that allegedly made an insufficiently original
contribution could not be misconduct.
     This inquiry is closed and no further action will be taken on
this case.




                           page 2 of 2
-
                            OIG Response to Dr. w                   s Letter

         In our draft report, we said that "given the amount of time since the events in
 this case occurred, we do not believe that the factual uncertainties . . . concerning [Dr.

-I'!        's] role in preparing the proposal can be resolved by further investigation, nor
 do we elieve that these uncertainties vitiate the university's conclusion that [Dr.
              committed misconduct in science." Nothing in Dr.s-              reply leads us
 to alter this conclusion.

        There is no dispute that Dr. a-s              involved in the project, or even in the
preparation of the proposal-the only dispute is over the nature and extent of his
involvement. We do not believe that the alleged absence of Dr. c                s signature
on documents in NSF's files is material to any conclusions about his level of
involvement in preparing the text of the proposal.' Even if we did, this would not alter
our conclusions about whether Dr. -0rnmitted                misconduct or about what
actions NSF ought to take concerning him. This is because we conclude, as we state in
the first paragraph on page 5 of our report, that Dr. -bears              responsibilityfor
submitting a plagiarizedproposal" since "at the very least, he acted recklessly."
Nothing in Dr.              letter challenges 'the essential line of reasoning in that
paragraph or the conclusion to which it leads.




' We have no evidence to contradict Dr.
W'S                                                assertion that the signature purporting to be Dr.
           is not genuine. We do not believe it reasonable for us to pursue this new allegation at this
                                                IS
stage m our proceeding, when recollections of the details of the submission process are inexact. We
recommend that NSF proceed in this matter by assuming that Dr. w       i     d not sign the proposal in
question. That assumption does not change our conclusion.
                     - .
                       .   NATIONAL SCIENCE FOUNDATION    ;
                               4201 WILSON BOLILEVARD
                              ARLINGTON, VIRGINIA 22230

                                July 28, 1999


    OFFICE O f THE
      DIRECTOR


 CERTIFIED MAIL --RETURN RECEIPT REOUESTED




 Re : Appeal of Misconduct in Science ~ e t e k i n a ion
                                                      t
 Dear Dr.      0




*
 On May 25, 1999, the National Science Foundation (NSF) received
 your appeal of our April 12, 1999 Misconduct in Science
 Determination.
 In the appeal submitted by nDr.
                              o~-I                   your behalf,
 ou contest NSFts finding-that you plagiarized text from a
        University proposal into a University of -proposal
   mitted to NSF for which you were a co-PI. You previously
raised these issues in your response to the draft Office of
Inspector General (OIG) investigative report and they were
addressed in both the OIG report and the April 12, 1999 Notice of
Misconduct in Science Determination.
In your appeal, you claim that your signature was forged on the
proposal and.argue that the absence of your signature
demonstrates that you were not involved in preparation of the.NSF
proposal.
NSF assumed, as suggested by OIG in its response to Dr. 0
 letter of September 5 , 1998 (See Tab 11, OIG Report), that you
did not sign the original proposal when it issued its finding of
scientific misconduct. In our view, the absence of your
signature on the proposal does not negate your responsibility in
this case as a co-PI to be aware of the contents of your
proposal. As we noted in our Misconduct Determination, although
you contest the extent of your involvement in drafting the
proposal, there is no dispute in the record that you agreed to
serve as the co-PI on the roposal. Indeed, you were the one who
obtained a copy of the *proposal          and suggested that the
p r o p o s a l be used as the template for your proposal. It
1s also undisputed that you participated in drafting the
proposal.
Furthermore, NSF fundedthe proposal and you acknowledge that you
were involved in the project for the first year. Even if you did
  not know the contents of the proposal when it was initially
  submitted to NSF, you certainly should have reviewed the proposal
 once it was funded to familiarize yourself with its contents.
 Even a cursory review of the -proposal         by someone familiar
 with t h e ~ p r o p o s a lshould have led to detection of the
 plagiarism. You were reckless in: (1) allowing the proposal to
 be submitted to NSF, naming you as co-PI, which was almost     \


 entirely plagiarized from the p r o p o s a l ; and ( 2 ) serving
 as a co-PI on the funded project and failing to read the
 proposal, discover the plagiarism, and take appropriate action.
  In your appeal, you also claim that the OIG report ignores the
 fact that the University Investigative Committee initially
 determined that you did not commit misconduct in science. The 5;
 Committee subsequently issued an Addendum, following receipt of
 additional affidavits indicating that your role in drafting the
 proposal was more extensive than initially thought, and revised
 its misconduct determination. Contrary to your assertion, the
 OIG report fully discussed the Committeets change in position.
You also assert that the University never gave you an opportunity
to respond to the Addendum and affidavits. The record, however,
indicates that you had numerous opportunities during the
University proceedings to respond to the allegations of
misconduct. The University specifically remanded the case to the
Investigative Committee to afford you the opportunity to'respond
to the Addendum and affidavits (See Tab 9, OIG Report).
I have considered your appeal and conclude that it does not raise
any new issues which were not previously considered and addressed
in the Misconduct in Science Determination. I agree with the
conclusion reached by the University, OIG, and NSFts Deputy




            -
Director that you committed misconduct in science and accordingly
affirm the finding of misconduct in science.




                          ~ i t aR. Colwell
                              Director




cc:   Dr.
May 22, 1999

Director
National Science Foundation
420 1 Wilson Blvd.
Arlington, VA 22230

RE:     Appeal of OIG Case Number M95060029

Dear Sir or Madam:

This is an appeal on behalf of Dr. t               o your ofice.based on an NSF letter
to ~r.-         dated April 11, 1999, postmarked April 15, 1999, enclosing the OIG
report on the above case. It was received at Dr.           post oftice while he was on
travel. He signed for it on April 28, 1999.

There is no signatory page to this letter. The three pages of this letter are not numbered.
The final sentence on the third page implies that another page is to follow.

The return address on the outside of the envelope is

                       Anita Eisensladf, Esq.
                       Ofice of the General Counsel
                       National Science Fouizdation
                       4201 Wilson Blvd, Suite 1265
                       Arlington, VA 22230

This appeal on behalf of Dr.           is based on the fact that the OIG report is seriously
flawed. I submit the following:




                                                -
       The OIG report does not address the fact that ~r.-s           signature was forged
       on documents submitted to the NSF. Dr. 0first discovered this last
       September. The act of forging Dr.s-           signature is a felony and an act of
       scientific misconduct.

       Other important documents including the original application were submitted to
       the NSF by the University of-without        Dr. 0         s review, approval, or
       signature.

       The OIG report ignores the fact that Dr.             was first found nof guilfy of
       "scientific misconduct" in a first report issued by the University-          Panel on
         August 15, 1996. This first report was given to Dr. n             or about August
         15, 1996.




                                                                                 -
        This first report was followed by an Addendum (with a reissue of the August 15
        report) issued by the-panel         on November 4, 1996. The Addendum was
        based on two inconclusive affidavits belatedly submitted to the-anel
        between August 15, 1996 and November 4, 1996. Because Dr. -si            retired
        and was not on campus, he did not learn of the Addendum and affidavits until the
        following Spring.

        The University has refused Dr. --any            rehearing or the right to appear
        before the-panel            to rebut the Addendum and affidavits or the right to
        question the affiants. It is the University's position that the Addendum of
        November 4,1996 concluded the matter. All avenues of appeal by ~ r .
        have been futile.

The University of-as         conducted a sllam investigation designed to cover-up its
own "scientific misconduct." This travesty must not be allowed to stand.

Dr. -has           been denied substantive and procedural due process under the sthand
 1 4 Amendments
       ~            and his civil rights have 'been violated under 42 USC 1983 et seq.,
In addition, he has suffered shame and humiliation, after serving the University with
honor and integrity for over 30 years. I hereby urge you to review this matter and reverse
the original findings of the NSF.


Very truly yours,




       National Science Foundation


       National Science Foundation
                            NATIONAL SCIENCE FOUNDAllON
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230




 OFFICE OF THE
DEPUTY DIRECTOR




 Memorandum
 DATE:       April 1 2 , 1999

 TO:         Phillip sunshine, Acting Inspector General

 FROM:       Joseph Bordogna, Acting Deputy Director

 RE:         Disposition of Recommendation with
             Respect to OIG Investigation of Misconduct
             in Science in the case -of
             and -01G                   Report
             M95060029)

CC:          Lawrence Rudolph, General Counsel

I have recently taken action with respect to your recommendation for a finding of
misconduct in science by Drs. -         L         a      n        d        your related
recommendations for action.
I have determined that ~ r s-d-ornmi
                              . ted                         misconduct in science through
their verbatim plagiarism of large portions of another's proposal in submitting a proposal
to NSF. I have concluded that the actions taken by the University o-are           sufficient
to protect the government, and am sending the recommended letter of reprimand
This memorandum transmits a copy of the letten informing ~ n . - a n d f
my determination and conveying the reprimand.


Attachment
                           NATIONAL SCIENCE FOUNDATION         .
                                4201 WILSON BOULEVARD
                               ARLINGTON, VIRGINIA 22230


                                              April 12, 1999


       OfflCE OF THE
      DEPUM DIRECTOR




 Re:      Notice of Misconduct in Science Determination
 Dear Dr. -:



 and Human Resources at the ~ationalScience Foundation (NSF).'
 AS  documented in the attached Investigative Report prepared by
 NSF's Office of Inspector General (OIG), your proposal
 plagiarized
           -
              text from
Unrverslty-        of the
                       proposal ) .*
Scientific Misconduct and Pronosed Sanctions
Under NSF1s regulations, ltmisconductNis defined to include
wplagiarism, or other serious deviation from accepted practices
in proposing, carrying out, or reporting results from activities
funded by NSF." 45 CFR. §689.1(a).
The University o         f investigated the allegations of
plagiarism and found that the majority of your proposal was
copied text from the-proposal.            The University determined
that vour nro~osalclearlv indicated to NSF that vou wlanned to


 However, it concluded that you did not indicate that the language
 in the proposal was almost entirely copied from the text of the
-.proposal.         The University concluded that you committed
 plagiarism and misconduct in science. OIG agrees with the
 University's conclusion.
               -




            NSF Proposal No.   0 (formerly) (                      .
            NSF Proposal No.   0,entitled
 Your submission of a proposal to N S F that extensively copies the
 words of others without adequate attribution or distinction,
 misled the reader into believing that the proposal contained
 original language. Failure to provide appropriate attribution to
 the original source in proposals severely undercuts the ability
 of NSF staff and reviewers to evaluate the PI'S expertise and
 familiarity with the field.
 Dr. -submitted                a response on your behalf to the
 OIG's draft investigative report. In your response, you note
 that your signature does not appear on the proposal and argue
 that the absence of your signature demonstrates that you were not
 involved in preparation of the N S F proposal. Although you have
 contested the extent of your involvement in drafting the
proposal, there is no dispute in the record that you agreed to
 serve as the co-PI on the proposal, that you were the one who
obtained a copy of the -proposal           from Dr.     and
suggested that t h e r o p o s a l be used as the template for
your proposal, that the purpose of your proposal was to replicate
the project described in the Harvard proposal, and that you did
draft at least a small portion of the proposal. Even a cursory
review of the -proposal         by someone familiar with the
-proposal         should have led to detection of the plagiarism.
At a mlnimum, you were reckless in allowing a proposal to be
submitted to NSF, nami    you as co-PI, which was almost entirely
plagiarized from the          proposal.
In your response, you also contend that the University misconduct
in science proceedings were unfair and request that NSF remand
this matter to the University of -for       further
investigation. The record indicates that you had numerous
opportunities during the University proceedings to respond to the
allegations of misconduct. I agree with the OIG's rationale
articulated in Tab 11 of the OIG report that remanding the case
to the University at this juncture would not be fruitful. As I
explained above, the administrative record demonstrates, by a
preponderance of the evidence, that you were reckless in
submitting an extensively plagiarized proposal to NSF.
 I t.hereforeagree with the University and OIG that your
submission of the proposal constitutes plagiarism as well as a
serious deviation from accepted practices within the'scientific
community. I conclude that you committed misconduct in science
under NSF's regulations.
NSF's regulations establish three categories of actions (Group I,
11, and 111) that can be taken in response to a finding of
misconduct. 45 CFR §689.2(a). Group I actions include issuing a
letter of reprimand conditioning awards on prior approval of
particular activities from NSF; and requiring certifications on
the accuracy of reports or assurances of compliance with
particular requirements. 45 CFR §689.2(a)(1). Group I1 actions
include restrictions on designated activities or expenditures;
and special reviews of requests for funding. 45 CFR §
 689,2(a)(2). Group I11 actions include suspension or termination
 of awards; debarment or suspension from participation in NSF
 programs; and prohibitions on participation as NSF reviewers,
 advisors or consultants. 45 CFR § 689.2(a)(3).
 In deciding what response is appropriate, NSF has considered the
 seriousness of the misconduct, whether it was deliberate or
 careless; whether it was an isolated event or part of a pattern;
 and whether the misconduct affects only certain funding requests
 or has implications for any application for funding involving the
 subject of the misconduct finding. See 45 C.F.R. §689.2(b).
The large amount of verbatim plagiarism and your years of
professional experience contribute to the seriousness of the
misconduct. On the other hand, I have taken into account several
mitigating factors. Most importantly, you did disclose to NSF
that your proposal was intended to replicate the NSF-funded
project conducted at -and        that the -proposal         was
the original source of your ideas. Secondly,
director at -provided        you with a copy oftheWct
                                                 the
proposal and indicated that you had his permission to "utilize
[the] proposal as the basis for your submission for funding to'
NSF." (OIG Investigative Report, Tab 8, pg. 1, Affidavit of

L           . Thirdly, the University and OIG concluded that Dr.
     bears the greatest responsibility for the misconduct that
occurred. And finally, the record indicates that this was an
isolated instance of plagiarism in your career.
I have also taken into consideration the numerous steps already
taken by the University to address the misconduct. The
the authors of the &
University required ou to send a letter of apology to NSF and
                           proposal. In addition, the University
instituted a requirement for a three-year period that if you
apply for internal or external support, you must submit an
affidavit to the University's Vice President for ~raduate
Studies, Research and Economic Development attesting that the
application consists of original prose and ideas. You also were
directed to resign your title of Emeritus. A letter of reprimand
was also placed in your personnel file for three years.
For all of the above reasons, I conclude-thatissuing this letter
of reprimand is the appropriate action in this matter. It is not
necessary for NSF to take any additional action. I am aware that
considerable time has passed since the plagiarism occurred and I
hope that this isolated event will be an anomaly in your
otherwise distinguished career.
Procedures Governing Appeals
Under NSF1s regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. 45 CFR §689.9(a). Any appeal should
be addressed to the Director at the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia 22230. For your
information we are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,




                  -
please call Lawrence Rudolph, General Counsel, at (703) 306-1060.

                                  Sincerely,


                            o ~ o s e Bordogna
                                        ~ h
                                Acting Deputy Director

Enclosures ( 2 )
              '


Investigative Report
NSF1s misconduct in science regulations
cc w/encl: Dr.
                          NATIONAL SCIENCE FOUNDATION
                             4201 WILSON BOULEVARD
                            ARLINGTON, VIRGINIA 22230


                                          April 12, 1999


      OFFICE OF THE
     DEPUTY DIRECTOR

   CERTIFIED MAIL --RETURN RECEIPT REOUESTED




   Re:   Notice of Misconduct in Science Determination
   Dear Dr.    c:
  to the ~ i x o r a t efor Education and Human Resources at the
  National Science Foundation (NSF).' As documented in the
  attached Investigative Report prepared by NSF1s Office of
  Inspector General (OIG), your proposal plagiarized    -- text from an
  earlier-proposal --
                      submitted to NSF  by Dr.               -of     the
ta-                            U n i v e r s i t y 1I(-
  proposal ) .
  Scientific Misconduct and Proposed Sanctions
  Under NSF1s regulations, "misconduct" is defined to include
  "plagiarism, or other serious deviation from accepted practices
  in proposing, carrying out, or reporting results from activities
  funded by NSF. " 45 CFR. 5689.1 (a).
  The University of          investigated the allegations of
  plagiarism an
  copied text fr




  concluded that you committed plagiarism and misconduct in
  science. OIG agrees with the University's conclusion.

            NSF Proposal No. ( f o r m e r l y 0. )
 Your submission of a proposal to NSF that extensively copies the
 words of others without adequate attribution or distinction,
 misled the reader into believing that the proposal contained
 original language. Failure to provide appropriate attribution to
 the original source in proposals severely undercuts the ability
 of NSF staff and reviewers to evaluate the PI'S expertise and
 familiarity with the field. I agree with the University and OIG
 that this constitutes plagiarism as well as a serious deviation
 from accepted practices within the scientific community. I
 therefore conclude that you committed misconduct in science under
 NSFfs regulations.
NSF1s regulations establish three categories of actions (Group I,
11, and 111) that can be taken in response to a finding of
misconduct. 45 CFR §689.2(a). G r o u ~I actions include issuincr a
                                                               d


letter of reprimand conditioning awakds on prior approval of
particular activities from NSF; and requiring certifications on
the accuracy of reports or assurances of compliance with
particular requirements. 45 CFR §689.2(a) (1). Group I1 actions
include restrictions on designated activities or expenditures;
and special reviews of requests for funding. 4 5 CFR §
689.2(a) (2). Group I11 actions include suspension or termination
of awards; debarment or suspension from participation in NSF
programs; and prohibitions on participation as NSF reviewers,
advisors or consultants. 45 CFR § 689.2(a)(3).




                    -
In deciding what response is appropriate, NSF has considered the
seriousness of the misconduct, whether it was deliberate or
careless; whether it was an isolated event or part of a pattern;
and whether the misconduct affects only certain funding requests
or has implications for any application for funding involving the
subject of the misconduct finding. See 45 C.F.R. §689.2(b).
 The large amount of verbatim plagiarism and your years of
 professional experience contribute to the seriousness of the
 misconduct. On the other hand, I have taken into account several
 mitigating factors. Most importantly, you did disclose to NSF
 that your proposal was intended to replicate the NSF-funded
 project conducted at          and that the         proposal was
 the original source of your ideas. Secondly,
 director at -provided         you with a copy
proposal and in icated that you had his permission to "utilize
 [the] proposal as the basis for your submission for funding to
NSF." (OIG Investigative Report, Tab 8, pg. 1, Affidavit of
            .    Thirdly, the record indicates that this was an
Y!EE!!stance        of plagiarism in your career.
I have also taken into consideration the numerous steps already
taken by the University to address the misconduct. The
University required you to send a letter of apology to NSF and
the authors of t    h    e proposal, which you have done. In
addition, the University instituted a requirement for a three-
year period that if you apply for internal or external support,
you must submit an affidavit to the University's vice president
 for graduate studies, research and economic development attesting
 that the application consists of original prose and ideas. You
 also resigned from your appointment as Distinguished University
 Professor. Finally, a letter of reprimand was placed in your
 personnel file for three years.
For all of the above reasons, I conclude that issuing this letter
of.reprimand is the appropriate action in this matter. It is not
necessary for NSF to take any additional action. I am aware that
considerable time has passed since the plagiarism occurred and I
hope that this isolated error in judgment will be an anomaly in
your otherwise distinguished career.
Procedures Governins Appeals
Under NSF1s regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. 45 CFR §689.9(a). Any appeal should
be addressed to the Director at the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia 22230. For your
information we are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,
please call Lawrence Rudolph, General Counsel, at (703) 306-1060.

                                     Sincerely,


                                     Joseph Bordogna
                              C/Acting      Deputy Director

Enclosures (2)
Investigative Report
N S F 1 s misconduct in science regulations
 7
  REPORT OF INVESTIGATION INTO AN ALLEGATION OF MISCONDUCT IN
                    SCIENCE AND ENGINEERING




 (the first subject) and Dr. t        h
                                                 SUMMARY

          The Office of Inspector General (01G) has determined that ~r-.
                                                 e second subject) of                -
           the university) committed plagiarism in a proposal to NSF. This conclusion is
 base on an investigation performed by the subjects' university. OIG recommends that
 NSF find that the subjects committed misconduct and send each of them a letter of
 reprimand from NSF'S Deputy Director. In view of the university's actions in this case,
 OIG believes that no further action is necessary to protect NSF's interests.

                                              OIG'S INOUIRY

          In the course of an awardee institution's investigation of an otherwise unrelated
  allegation of plagiarism, the investigating committee noted that there were extensive
  similarities between a proposal submitted to NSF by the subjects' and an earlier proposal
 (the source proposal) by Dr.                   -t-hetf
-the              other univers=larities                   came to OIG's attention when the
 institution sent the committee's report to          OIG examined the two proposals and
concluded that almost the entire text of the subjects' proposal was identical or
 substantially similar to that of the source proposal. The subjects' proposal appears after
Tab 1, and the source proposal appears after Tab 2. The identical portions of the two
proposals are highlighted. OIG wrote to the subjects, noting that, although their proposal
made clear that their project would be modeled after the source proposal's project and
would draw extensively on educational materials originally developed for that project,
their proposal gave no indication that the language of the proposal was taken directly       .




                                                                           -
                                                                           -
from another source and was not original to the proposal itself. OIG's letter to the first
subject appears after Tab 3.4 After receiving replies from the subjects (Tab 4), OIG
referred the case to the university for investigation. OIG's referral letter, which includes
a summary of our inquiry, appears after Tab 5.'

' '@e proposal si-formeyrl-,                                entitled'         W          f         -
                                                                  ' On the basis of the proposd, NSF made an
 award30 the university. The award has since closed.
   The proposal isedletni't                      "
                        " On the basis of this p r o z l , NSF made an award to
l i h l n . t h e r a l s o involved an NSF award. 01G had deferred independent investigative activity while
the institution conducted its own investigation, and, consistent with NSF's misconduct regulation (45
C.F.R. 6 689.3 (b) (4)), the institution provided OIG with its investigation report. The committee noted
these similarities because it considered them to be evidence of possible misconduct that might require
fi.uther investigation.
   OIG's letters to the two subjects are substantively the same, and we have therefore appended only one of
them to this report.
  Although the alleged plagiarism in this case dates to a 1990 proposal, it was not brought to OIG's
attention until 1995. The university experienced unusual delays in resolving the case, with the result that
OIG did not receive notification of its final action until April, 1998, nearly two and one half years after we
had referred the case to it for investigation.


                                             Page 1 of 7                                        M95-29
                        THE UNIVERSITY'S INVESTIGATION

         After conducting its own inquiry, the university proceeded with an investigation.
 The university reported the results of its investigation in two documents-a "Final
 Report" and an "Addendum." These documents, which together comprise the
 university's investigation report, appear after Tab 6. They are an integral part of OIG's
 report in that they state the factual findings on the basis of which we believe NSF should
 make its decisions concerning this case.

        According to the Addendum (p. 3), the committee sent a preliminary draft of its
investigation report to the subjects, received a reply from the first subject, chose to make
some "small textual changes" to the preliminary draft, and declared the resulting
document final. The committee also, in light of the first subject's reply, wrote the
Addendum, which is an integral part of its final judgment concerning the subjects. In the
Addendum, the committee reaffirmed its judgment concerning the first subject, but
substantially revised its conclusions concerning the second subject.

         In both documents, the investigation committee concluded that the first subject
had committed misconduct in science by incorporating into his proposal, without
attribution, text from the source proposal. It judged that the first subject played the
leading role in preparing the proposal and that he knew that he was incorporating
materials written and supplied by staff members from the source project. It cited the
extent of the unattributed copying and the first subject's "senior position" (Final Report,
p. 10) as factors contributing to the seriousness of his actions. But it noted that the first
subject had clearly indicated to NSF his plan to replicate in a new region of the country a
project that had proven successfU1 elsewhere. It concluded that the first subject had not
attempted to mislead NSF as to the originality of the work he proposed. In explaining its
view that the first subject's action was misconduct, the committee stated (Final Report,
p. 13) that "it is acceptable to copy a program, but unacceptable to copy a proposal."

         The University Research Council reviewed the investigation report and
unanimously recommended that the first subject write letters of apology to NSF and the
authors of the source proposal; at the time he submits applications for internal university
or external grant support, also submit an affidavit to the university's Vice President for
Graduate Studies, Research and Economic Development attesting that his applications
consist of original or properly attributed prose and ideas; and resign his position as
Distinguished University Professor (while retaining his tenure, rank, and other university
positions). The Council also recommended that a letter of reprimand be placed in the
first subject's personnel file, to be removed after three years if there were no further
evidence of misconduct. The subject appealed the recommended action concerning his
distinguished professorship, but did not contest the other recommendations. The
university president denied his appeal. Materials concerning the university's sanctions,
including the first subject's apology to NSF, the first subject's letter resigning his
distinguished professorship, and the letter of reprimand, appear after Tab 7.



                                     Page 2 of 7                               '   M95-29
          The investigation committee initially concluded that the second subject played a
 limited role in preparing the proposal and, because he was merely careless, should not be
 held responsible for the plagiarism in it. New evidence that the first subject submitted in
 response to the preliminary draft led the committee to conclude that the second subject
 played a more substantial role in preparing the proposal than the committee first thought
 and that the second subject misappropriated text from the source proposal. However, the
 committee continued to suggest that the second subject's role was subsidiary to that of
 the first subject. The first subject's reply to the preliminary draft and the new evidence
 he submitted appear after Tab 8.

        The University Research Council reviewed the investigation report and
unanimously recommended that the university find that the second subject committed
misconduct in science and impose sanctions on him. The Council's recommendations
regarding the second subject concerning letters of apology, affidavits, and a letter of
reprimand were the same as its recommendations concerning the first subject. The
Council also recommended that the second subject resign his title of Emeritus (while
retaining his tenure, rank, and other university positions). The second subject raised
questions about the evidence that led the university to conclude he had committed
misconduct and appealed the council's recommendations. The university's president
denied his appeal, and the university reprimanded the second subject. Because the
second subject did not voluntarily resign his title of Emeritus, the university's president
recommended that the Board of Trustees strip the second subject of his Emeritus status.
The Board did so in April, 1998. According to the university, the second subject did not
write the letters of apology that the university requested. Documents relating to the
second subject's appeal appear after Tab 9.

        OIG has examined the university's investigation report and believes that it is fair,
accurate, and complete. Given the amount of time since the events in this case occurred,
we do not believe that the factual uncertainties noted by the university6 concerning the
second subject's role in preparing the proposal can be resolved by further investigation,
nor do we believe that these uncertainties vitiate the university's conclusion that the
second subject committed misconduct in science. Although the subjects raised various
considerations with OIG and the university to suggest that their actions were not
sufficiently serious to be misc~nduct,~ we believe that only the considerations mentioned
below in our analysis of the subjects' actions have substantial merit.'


  On this point, see especially pages 3-6 of the Addendum to the Final Report of the Investigation Panel.
The Addendum is included after Tab 6.
'
8
  Tabs 4, 7, 8, and 9 contain materials that the subjects submitted.
  One argument, raised by the fust subject, deserves particular mention. The fust subject compares his
actions to those of the subjects in OIG case M94100032. In that case, the awardee institution concluded
that the subjects did not commit misconduct, and OIG agreed with this conclusion. We believe that our
recommendation in the present case is fully consistent with our conclusion in M94100032. In that case, the
amount of verbatim plagiarism was far less and the director of the source project was initially expected to
be a co-PI on the proposal the subjects in the case were planning to submit. OIG's decision document
closing that case appears after Tab 10. We note that the present case was brought to OIG's attention as a
result of the investigation of that case.


                                           Page 3 of 7                                       M95-29
           OIG'S CONCLUSION REGARDING MISCONDUCT IN SCIENCE

         There is no question that the subjects submitted a proposal to NSF that is almost
 entirely copied fiom a proposal that was written by personnel working for the source
 project and supplied to the subjects by the source project's director. Although the
 subjects' proposal accurately indicated that the subjects planned to "copy" the source
 project in a different region of the country, the proposal gave no indication that the
 proposal text was almost entirely a copy of words written by others.

          NSF's regulation on Misconduct in Science and Engineering (45 C.F.R. pt. 689)
  defines misconduct in part as a "serious deviation from accepted practices in proposing"
  research. The regulation specifically mentions only three examples of misconduct, and
  one of these is plagiarism (5 689.1 (a) (1)). Research scientists generally consider
 plagiarism a serious violation of professional standards. The university's investigation
 committee rejected the idea that, with regard to plagiarism, professional standards in
 science education were materially different from those in science research (Final Report,
 p.13: "We view his distinction between what is accepted behavior in education versus
 that in science research to be wrong."). We know of no empirical support for this idea,
 and, in our experience, at least one other investigating committee has explicitly rejected
 it.' We believe that NSF should join the university in affirming the general applicability
 in the science education community of the ethical standards that govern attribution in the
 scientific community at large.

        Plagiarism is generally understood to involve using the words or ideas of another
person without giving appropriate credit. In this instance, nearly the whole proposal
submitted by the subjects consisted of plagiarized text. OIG believes that failing to give
credit for this amount of material in this case is a serious deviation from accepted
practices and fits NSF's definition of misconduct. The subjects' university reached this
same conclusion. OIG believes that NSF should endorse the university's finding.

         The preponderance of the evidence indicates that the first subject bears
responsibility for submitting a plagiarized proposal. There is no question that he was
primarily responsible for preparing the text of the proposal. In preparing the proposal, he
knew he was incorporating a large quantity of material into his proposal that was written
by staff members at the source project and that he had not attributed to them. In our
view, other circumstances surrounding the first subject's action bear on the seriousness of
the first subject's misconduct, but not on the issue of whether he committed misconduct
at all. (We discuss these other circumstances below, in connection with our
recommended disposition of this case.)


  In its investigation report on OIG's case M94100032 (see footnote 6 above), an investigating committee
constituted by thed,ais-                                 "We do not, therefore, conclude or even suggest
that a different standard of academic scholarship should apply to grant applications that involve science
education or teacher enhancement programs." This statement appears on page 28 of the committee's
report. The report is on file in OIG.


                                           Page 4 of 7                                      M95-29
          The second subject also bears responsibility for submitting a plagiarized proposal.
 We believe he acted knowingly. At the very least, he acted recklessly. He permitted a
 proposal to be submitted to NSF, naming himself as co-principal investigator, that was
 almost entirely plagiarized from a document that he obtained from the source project. He
 should have been intimately familiar with the source document, because it described the
 operation of a project that he planned to use as a model for his own work. Even a cursory
 examination of his own proposal should have alerted him to the misappropriation of text
from the source document. Under these circumstances, we agree with the university's
president when he said, denying the second subject's appeal of the university's
misconduct finding, that "while I understand that you dispute the extent of your
involvement in drafting the text of the proposal, the unequivocal finding of the
Investigation Panel that scientific misconduct occurred in the submission of the . . .
proposal and your ;ole as co-principal investigator responsible for its submission makes
[sic] it difficult for me to find relevance in the limitations you place on your
contrib~tion."'~Moreover, the investigation committee, which was in the best position
to make a judgment on the basis of conflicting testimony, concluded that he was involved
in preparing portions of the proposal that included plagiarized text. We believe the
preponderance of the evidence supports their conclusion, and indicates that he acted
knowingly. In any event, whether he acted knowingly or recklessly, he bears
responsibility for the misconduct in this case.

       OIG concludes that a preponderance of the evidence supports the finding that
both subjects committed misconduct in science as defined in NSF's regulation on
Misconduct in Science and Engineering by submitting a plagiarized proposal to NSF,
and recommends that NSF make a finding to that effect.

                           OIG'S RECOMMENDED DISPOSITION

        Under 8 689.2 (b) of NSF's regulation on Misconduct in Science and
Engineering, upon making a finding of misconduct, NSF, in determining what actions it
should take, must consider the seriousness of the misconduct. This includes considering
the state of mind with which the subjects committed misconduct and whether the
misconduct "was an isolated event or part of a pattern" (5 689.2 (b) (3)). We have
explained why the subjects' actions seriously deviate from accepted practices and hence
are misconduct; this section explains OIG's recommended action in light of our
assessment of the seriousness of the subjects' misconduct, i.e., our assessment of how
serious this instance of misconduct is in relation to other instances.

        The large amount of verbatim plagiarism contributes to the seriousness of the
misconduct in this case. In our view, the subjects' many years of professional experience
also makes their violation of professional standards more serious, because, as
experienced scientists and educators, they should have clearly recognized the wrongness
of their act.


10
   This statement appears on page 3 of the president's December 15, 1997, letter to the second subject. The
letter is among the documents that follow Tab 9.


                                           Page 5 of 7                                       M95-29
        However, a number of facts tend to attenuate the seriousness of the subjects'
  misconduct:

      The subjects' proposal accurately indicated the source of their ideas and the fact that



                                                                 ''
      the project was a replication of the source project. Thus the plagiarism involved
      words, but not ideas or implicit claims of originality, except insofar as judgments
      stated in the proposal appeared to rest on the ex erience of the subjects, rather than on
      that of the staff members of the source project. NSF knew from the proposal that it
      was being asked to fund a copy of the source project, transplanted to a different
      region of the country.

      The director of the source project encouraged the subjects to use the document he
      supplied to them. There is no evidence that he in any way gave them permission to
      use the document without appropriate attribution." But the subjects' belief, grounded
      in their communications with the project director, that they had permission fkom the
      source project to "draw on" or "utilize the text of"13the source document mitigates
      the seriousness of their misconduct, because it gives them some limited basis for a
      good faith, albeit misguided, belief that their plagiarism was justified.

      The subjects did not commit misconduct willfully. There is no indication that they
      made special provision to prevent detection of their plagiarism.

     The subjects' misconduct appears to be an isolated incident in two otherwise
     honorable careers. There is no evidence that it was part of a pattern.

     The misconduct took place approximately 8 years ago, and there has been no
     recurrence of misconduct.

OIG believes that NSF should join the university in                that the subjects' actions
constitute misconduct in science and should send each subject a letter of reprimand. This
is a Group I action (see $689.2 (a) (1) (i)). We believe that the university's other actions,
in particular its affidavit requirements, are sufficient to protect NSF's interests and render
additional NSF action unnecessary.

" On page 8 of the Addendum, the investigation committee quotes two sentences from the subjects'
proposal. One, which appears on p.22 of the proposal, states that "[wle believe that the most important
element in science education theory relates to students' 'naive theories."' The other, which appears on
p.23, states that "[wle are particularly impressed by the results of
                                                                  -eht
m        program organized by    m."       The committee comments:

         Any independent reader, including the reviewers at NSF, would conclude that these
         sentences describe personal, professionaljudgments. However, these sentences were
         copied without attribution fkom the                            SPICA proposal.
" Moreover, such permission was not his sto -                            of attribution serve readers as well as
authors. Authors cannot waive readers' right to know whose words and ideas they are reading or exempt
colleagues from their obligations to attribute material properly.
l3 The quoted words come fiom the first subject's September 11, 1996, letter to the chair of investigation
committee (pages 4 and 5, respectively). On page 4, the fmt subject is quoting an electronic mail message
he received from the director of the source project. The first subject's letter is included in Tab 8.


                                             Page 6 of 7                                         M95-29
        We share the university's view that the first subject bears greater responsibility
for the misconduct that occurred than does the second subject. We believe it would be
desirable for the text of NSF's letters of reprimand to reflect this difference, but we do
not believe that the difference is of such magnitude as to either justifi additional NSF
action regarding the first subject or make it inadvisable to reprimand the second subject
for his misconduct.

        Dr.           received a copy of our draft report and elected not to reply to it. Dr.
s-~-.r                                representative, submitted a reply on Dr. ICl)'s
    behalf. The reply is attached after Tab 11. In it, Dr. -equests            that we remand
    Dr. -s         case to the University o             r further investigation. We have
    chosen not to do so. A brief statement of our reasons appears directly following Dr.
               reply.




                                     Page 7 of 7
